                                        Denali Commission
                                      510 L Street, Suite 410
                                      Anchorage, AK 99501

                                           907.271.1414 tel
                                          907.271.1415 fax
                                      888.480.4321 toll free
                                            www.denali.gov




SEMIANNUAL REPORT TO THE CONGRESS


          FY 2011 – FIRST HALF



    OFFICE OF THE INSPECTOR GENERAL

          DENALI COMMISSION

          ANCHORAGE, ALASKA
Semiannual IG Report                           1                                        May 2011



MEMORANDUM FOR FEDERAL CO-CHAIR NEIMEYER


From:     Mike Marsh, CPA, MPA, CFE, Esq.
          Inspector General

Subject: Semiannual report to agency head and Congress for first half of FY 2011



The discussion below constitutes my report to the agency head and Congress, as required by the
Inspector General Act, for the first half of FY 2011.


                         FOCUS OF THIS PERIOD’S REPORT TO CONGRESS

The Denali Commission’s statutory authorization expired two years ago. Congressional staff and
OMB are considering the future statutory fate of Congress’ only experiment with a regional
commission that serves a single state (Alaska).

Congress’ other six regional commissions each serve from four to 13 states. The single-state
Denali Commission (Denali) has a unique statute that has been problematic to implement in
practice over its short federal lifespan of just over a decade.

Denali has had its own full-time, in-house Office of Inspector General (OIG) for the past five
years, and we’ve long reported on the commission’s problems in our semiannual reports to
Congress. However, last year we began a series of three such reports that specifically reflect on
the lessons learned from Denali’s decade. Congress has given Denali around $1 billion and
considerable statutory flexibility during this experiment. And it’s time to think hard about what’s
been done with what’s been given.

We consider this semiannual report to Congress (May 2011) to constitute the third installment of
our “trilogy” that offers OIG’s perspective on the agency’s form and future.

In our report issued a year ago (May 2010), Denali OIG offered an extensive review of the
agency’s troublesome enabling act — as Congress has encouraged us to do in section 4(a)(2) of
the Inspector General Act. That provision directs inspector generals to do the following:

        to review existing and proposed legislation and regulations relating to programs
        and operations of such establishment and to make recommendations in the
        semiannual reports required by section 5(a) concerning the impact of such
        legislation or regulations on the economy and efficiency in the administration of
        programs and operations . . .
Semiannual IG Report                                           2                             May 2011


We thus cataloged over 80 potential statutory amendments at the conceptual level. We discussed
the issues in depth and we recommended solutions, but we did not attempt to offer the specific
technical language that would be needed to implement those solutions through legislation. Our
overall position was that “OIG does not recommend that Congress reauthorize the Denali
Commission without a major overhaul of its enabling statute.”1

However, after conferring with the agency head, CFO, OMB, and congressional staff, Denali
OIG concluded that it would valuable for us to pass on our institutional memory of the missing
statutory language that would have made the agency lower maintenance for the federal system.
This more specific type of OIG recommendation seemed consistent with Congress’ encourage-
ment in section 4(a)(4) of the Inspector General Act for us to do the following:

            to recommend policies for, and to conduct, supervise, or coordinate relationships
            between such establishment and other Federal agencies, State and local
            governmental agencies, and nongovernmental entities with respect to (A) all
            matters relating to the promotion of economy and efficiency in the administration
            of . . . programs and operations . . .

Thus, Denali OIG’s last semiannual report to Congress (November 2010) suggested potential
language for a major overall of a very troubled enabling act. We expressed our hope that these
suggestions might assist in the congressional conversation as to what the public should expect
from a reauthorized regional commission (and what geography constitutes a meaningful
“region”). At the least, we hoped that those ultimately sentenced to craft Denali’s new language
would find our suggestions helpful input on the options that might prevent future problems with
this type of entity.

If we consider the instant (May 2011) report as the third installment of the “trilogy,” Denali OIG
will focus this time on responding to requests from various sources2 to assess the implementation
of recommendations from all (!) semiannual reports we’ve ever issued (basically the last five
years).

Over these years, Denali OIG has made a total of 159 recommendations in our semiannual
reports to the Congress (see detailed list in the Appendix). Those recommendations have
covered the following subject areas:

                   Better Staffing (Players and Personnel)                             29
                   Better Funding Diversification and Flexibility                      21
                   Better Agency Processes                                             40
                   Better Conflict Resolution                                          11
                   Better Controls Over the Use of Grant Funds                         25
                   Agency's Optimal Permanent Structure                                 8
                   Potential "Value Added" for the Public (Filling the Federal Gaps)   25
                                                                                       159

1
    See Denali OIG, Semiannual Report to the Congress (May 2010), page 35.
2
    The agency head and congressional staff have been among the requestors.
Semiannual IG Report                                           3                                                      May 2011



As detailed in the Appendix, the 159 recommendations can also be summarized as falling within
the following categories that Congress has listed as “fair game” in the Inspector General Act:

                                Potential statute changes [IG Act sec. 4a(2)]                   84
                                Program effectiveness [IG Act sec. 4a(1)]                       14
                                Prevention of waste or fraud [IG Act sec. 4a(3)]                35
                                Program efficiency [IG Act sec. 4a(3)]                          11
                                Compliance with laws [IG Act sec. 4a(1)]                        15
                                                                                               159

Exhibit 1 summarizes OIG’s assessment of the implementation status for the 159 recommend-
ations. Denali’s management may expectedly challenge our assessment on some issues, and the
agency head’s public response to this report is, of course, the place to alert readers to such
differences.3

Around half (84) of our 159 recommendations                                                  EXHIBIT 1
are simply matters left to Congress’ discretion                                  RECOMMENDATIONS BY
whenever it chooses to renew, fix, or scrap                                  DENALI’S INSPECTOR GENERAL IN
the enabling legislation.                                                  SEMIANNUAL REPORTS TO CONGRESS

                                                                                       FY 2006 TO FY 2011
Larger OIGs with specialized staff tradition-
ally report the dollars recovered in lawsuits
against grantees and the number of grantees                          Total recommendations made by IG                        159
sent to jail. While such litigation certainly
                                                                          Recommendations to management                        75
sends a deterrent message, the recommend-
ations from the tiny Denali OIG (now 1 FTE,                                   Implemented by management               23
that is, the IG himself with no staff) have by
necessity emphasized prevention of the                                        Not implemented by mgmt                 34
disease rather than treatment of its symptoms.
                                                                              Under consideration by mgmt             14

The Appendix shows that our recom-                          Moot                         4
mendations over the past five years have
focused upon the improvement of processes               Recommendations to Congress           84
                                                         (potential statute changes)
and programs, the prevention of waste, and
the statutory fixes that Congress should
consider for persistent issues. This approach is less tangible (and less statistically countable4)
than garnished grantees in belly chains, but it still seems the best way to leverage the limited
resources (again, 1 FTE) of the smallest of the statutory federal OIGs.
3
    See Inspector General Act sec. 5(b).
4
  For what it’s worth to those wishing to advance the inspector general function over the long run, we also note that the statistics
emphasized in the Inspector General Act don’t capture four types of statutory activities that can be significant — particularly
when a small OIG must leverage very limited resources (1 FTE in our case). First, OIG technical assistance to the agency in
preventing or resolving problems ("coordination," "policy direction") is encouraged by IG Act sections 4(a)(1), (3), (4) so long as
consistent with OIG independence. Second, OIG reviews of statutes for potential changes by Congress are encouraged by IG Act
section 4(a)(2). Third, OIGs can spend considerable time informally briefing the agency head, congressional staff, and oversight
Semiannual IG Report                                          4                                                   May 2011



However, our past two reports have candidly recommended that Congress consolidate Denali’s
OIG with the one that will serve the three other regional commissions created in the 2008 Farm
Bill.5 The economies of scale from this consolidation should provide greater public oversight of
Denali’s funding than the agency’s current OIG can do as a force of one. And that consolidation
remains our recommendation in this report.


                               THE FATE OF THE FOUR: REGIONALS ON THE ROPES

The Denali Commission is one of the seven existing “regional commissions” that Congress has
created in federal statutes. However, Denali is also among the four of these regional
commissions whose continued viability is clouded with uncertainty.

Denali Commission. This regional commission serves only the single state of Alaska and was
created by the Denali Commission Act6 in 1998. Congress now funds the agency at less than half
of its highest support in prior years, with Congress recently rescinding7 $15 million of previous
funding. Congress has also stopped funding two of Denali’s significant programs: the building
of remote clinics and the training of rural workers. The agency has a rented office in Anchorage,
Alaska and less than 20 employees at this point.

The agency’s statutory authorization expired back in FY 2008 (though the agency has continued
to receive limited annual appropriations and spend unused no-year funding). The Congressional
Budget Office, OMB, and Denali OIG have in our publications challenged the efficiency of
Congress’ sole experiment with a “regional” commission that includes only a single state.8


regulators (e.g., GAO, OMB) on agency issues under IG Act section 4(a)(5) (the statutory phrase "and otherwise" is an
alternative to formal written reports). Fourth, OIGs can per IG Act section 6(a)(3) obtain authoritative determinations of
oversight issues that are important resolutions in themselves (e.g., GAO comptroller general decisions, OLC legal opinions,
OMB interpretations).
5
  In the 2008 Farm Bill, Congress created three new regional commissions that together serve a total of 15 states. See P.L. 110-
246, sections 15301, 15731-15733 (40 USC 15301, 15731-15733). Congress included the following provision for a consolidated
inspector general function:
       Appointment of Inspector General.—There shall be an Inspector General for the Commissions appointed in
       accordance with section 3(a) of the Inspector General Act of 1978 (5 U.S.C. App.). All of the Commissions shall be
       subject to a single Inspector General.
See P.L. 110-246, sec. 15704 (40 USC 15704).
6
    See P.L. 105-277, 42 USC 3121.
7
  See P.L. 112-10 sec. 1477. Denali OIG has requested the comptroller general’s formal guidance as to how management can
implement this rescission in practice without violating the Antideficiency Act. See pending GAO decision # B-322162 (Subject:
Denali Commission—Fiscal Year 2011 Rescission). This is an appropriate approach to such issues under 31 USC 3526(d),
31 USC 3529, and Inspector General Act sections 4(a)(4) and 6(a)(3).
8
 See Denali OIG, Semiannual Report to the Congress (May 2010), pages 35-37, 40-42; “Inspector General’s Perspective on
Management and Performance Challenges Facing the Denali Commission” in the 2009 Performance and Accountability Report;
OMB’s recommended “Terminations, Reductions, and Savings,” pages 2, 20, 21, 33 in Budget of the U.S. Government, Fiscal
Semiannual IG Report                                         5                                           May 2011



Northern Border Regional Commission. This regional commission represents four northeastern
states and was created by the 2008 Farm Bill.9 Its funding has so far been limited to a single
appropriation of $1.5 million.10 It has a presidentially-appointed agency head but no staff. He
works alone from a federal office building in Maine. The agency’s current statutory authorization
expires in FY 2012.11

Southeast Crescent Regional Commission. This regional commission represents seven south-
eastern states and was created by the 2008 Farm Bill.12 Its funding has so far been limited to a
single appropriation of $250,000.13 It so far has no agency head, no staff, and no office. The
agency’s current statutory authorization expires in FY 2012.14

Southwest Border Regional Commission. This regional commission represents four southwestern
states and was created by the 2008 Farm Bill.15 It so far has no appropriations, no agency head,
no staff, and no office. The agency’s current statutory authorization expires in FY 2012.16


                                 Potential solution: completely virtual offices of
                               teleworking staff detailed from other organizations

The traditional assumption is that agencies, at a minimum, need funding for their own personnel
and office space to start and stay in business.

However, all four of the regional commissions in question have the statutory authority in their
enabling acts to request temporary details of employees from other federal agencies.17 Further,
the Intergovernmental Personnel Act allows the regional commissions to arrange details of
experts from state, tribal, nonprofit, university, and local governmental entities.18 And all four


Year 2010 at www.budget.gov; OMB, Program Assessment of Denali Commission, at www.expectmore.gov; Congressional
Budget Office, Budget Options, vol. 2 (August 2009), sec. 450-5, page 106 at www.cbo.gov.
9
  See P.L. 110-246, secs. 15301, 15733 (40 USC 15301, 15733).
10
     See FY 2010 Energy and Water Development Appropriations Act (P.L. 111‐85) sec. 314.
11
     See 40 USC 15751.
12
     See P.L. 110-246, secs. 15301, 15731 (40 USC 15301, 15731).
13
     See FY 2010 Energy and Water Development Appropriations Act (P.L. 111‐85) sec. 314.
14
     See 40 USC 15751.
15
     See P.L. 110-246, secs. 15301, 15732 (40 USC 15301, 15732).
16
     See 40 USC 15751.
17
     See 40 USC 15304(a)(5); 40 USC 15304(b); Denali Commission Act (PL 105-277) secs. 305(a), 306(d).
18
     See 5 USC 3372-3374.
Semiannual IG Report                                         6                                            May 2011


commissions have the statutory authority to accept donated services. 19 (For instance, a regional
commission could conceivably borrow an expert from a charitable foundation for either a task or
a time period.)

Agencies frequently loan personnel for specific assignments or defined time periods without
reimbursement for salaries. They see a mutual benefit, a linked fate, or a “partnership.” But the
borrowing agency may still face the obstacle of funding the loaned employee’s travel and
lodging expenses at the temporary workplace. However, under the new Telework Enhancement
Act of 2010,20 regional commissions should consider the potential service of detailed employees
using videoconferencing and other online technology that would negate the need for travel from
their permanent duty stations.

In fact, the new law requires that federal agencies assess all employee positions for potential
conversion to telework.21 The goal is obviously to reduce the government’s “footprint” of
physical office space. The four struggling regional commissions (including Denali) should
seriously consider the feasibility of a completely virtual existence with teleworking employees as
a substitute for the overhead of maintaining a physical office site.


                       Potential solution: economies of scale from expanded “regions”

The federal system is populated with many small, specialized agencies. The service area of the
Denali Commission is limited to Alaska. The Congressional Budget Office, OMB, and Denali
OIG have in our publications challenged the efficiency of Congress’ sole experiment with a
“regional” commission that includes only a single state.22

OIG’s past two reports23 have recommended that Congress consider the potential combination of
an expanded regional commission that would serve Alaska, Hawaii, Guam, American Samoa, the
Northern Mariana Islands, and the three multi-island former Pacific territories (freely associated
states) that receive congressional support through the Department of the Interior and other
federal agencies. While the climates are obviously dissimilar, Denali’s lessons-learned in serving
small, isolated, road-challenged, ethnically-diverse settlements should be quite transferable to
such a “Pacific Regional Authority” (e.g., small clinics and power plants).

19
     See 40 USC 15304(a)(7); Denali Commission Act (PL 105-277) sec. 305(c).
20
     See P.L. 111-292; 5 USC 6501-6506.
21
     See P.L. 111-292 sec. 2; 5 USC 6502(a)(1).
22
  See Denali OIG, Semiannual Report to the Congress (May 2010), pages 35-37, 40-42; “Inspector General’s Perspective on
Management and Performance Challenges Facing the Denali Commission” in the 2009 Performance and Accountability Report;
OMB’s recommended “Terminations, Reductions, and Savings,” pages 2, 20, 21, 33 in Budget of the U.S. Government, Fiscal
Year 2010 at www.budget.gov; OMB, Program Assessment of Denali Commission, at www.expectmore.gov; Congressional
Budget Office, Budget Options, vol. 2 (August 2009), sec. 450-5, page 106 at www.cbo.gov.
23
  See Denali OIG, Semiannual Report to the Congress (Nov. 2010), page 4; Denali OIG, Semiannual Report to the Congress
(May 2010), page 37.
Semiannual IG Report                                     7                                                May 2011


The Southeast Crescent Regional Commission covers seven southern states. Congress should
similarly consider expanding the defined region to include Puerto Rico and the U.S. Virgin
Islands in the adjacent Caribbean.


                        Potential solution: economies of scale from incorporation as
                       “operating administrations” under the Secretary of Commerce

Each of the four regional commissions has structural independence within the federal system.
While agencies appreciate the flexibility that comes with this status, the independence can be
meaningless if an agency in practice lacks the personnel and appropriations to accomplish its
mission — or to even get started in the first place.

OIG’s reports (and our many recommendations) have detailed the lessons from Denali’s decade
of difficulties, as the small commission has attempted to conform to the labyrinth of federal
expectations for an independent agency. There is simply a point where small size converts the
independence into isolation. The three new regional commissions will probably face the same
challenges as Denali unless placed under a support services umbrella with some practical
economies of scale.

The best model for a potential solution may the Saint Lawrence Seaway Development
Corporation (SLSDC), an “operating administration” with a separate corporate existence under
the Secretary of Transportation. SLSDC is governed by a presidentially-appointed
“administrator” that reports to the Secretary. The administrator has the benefit of advice from an
“advisory board,” whose five members are also presidential appointments. The advisory board
meets at least quarterly at the call of the administrator and advises the latter on the agency’s
“general policies.” The advisers are paid per diem and travel for their services.24

Congressional testimony by the SLSDC administrator last year suggested an economic
development role similar to that envisioned for the regional commissions:

           The St. Lawrence Seaway directly serves an eight-state, two-province region that
           accounts for 29 percent of the U.S. gross domestic product (GDP), 60 percent of
           Canada’s GDP, 55 percent of North America’s manufacturing and services
           industries, and is home to one-quarter of the continent’s population. In fact, a
           2001 economic impact study found that maritime commerce on the Great Lakes
           Seaway System impacts 150,000 U.S. jobs, $12 million per day in wages, $9
           million per day in business revenues, and provides approximately $3.6 billion in
           annual transportation cost savings compared to the next least expensive mode of
           transportation.25

24
     See 33 USC 981-982; 49 USC 110; 49 CFR 1.3, 1.25.
25
  Written testimony on “Agency Budgets and Priorities For FY 2011” by SLSDC Administrator Collister Johnson, Jr. to the
Subcommittee on Water Resources And Environment of the House Committee On Transportation And Infrastructure (March 4,
2010), page 1, at www.greatlakes-seaway.com/en/pdf/slsdc_speeches_20100304.pdf.
Semiannual IG Report                                         8                                                  May 2011



The statutory relationship between SLSDC and a cabinet secretary seems the optimal day-to-day
balance between autonomy for a specialized mission and the needed administrative support from
practical economies of scale. Based upon the lessons from Denali’s decade of difficulties, OIG
recommends that Congress consider incorporating each of the four regional commissions as an
operating administration headed by an administrator that reports to the Secretary of Commerce.

Each administrator should have the benefit of advice from a statutory advisory board subject to
the Federal Advisory Committee Act (FACA). And the latter statute makes it clear that such
advisory panels are known by many names. Whether called a “commission,” “board,”
“committee,” “council,” or “task force,” a group that advises an agency is treated as an “advisory
committee” subject to FACA’s rules for public accountability unless Congress says otherwise. 26


                         Potential solution: statutory flexibility for diversified funding

All four regional commissions are currently in a state of waiting for the congressional
appropriations needed to plan their futures. They face uncertainty as to how long they will wait
— and whether they can go elsewhere.

Traditional federal agencies work within a legal norm that limits their spending to such
appropriations as Congress decides to send them. Efforts to circumvent the congressional limits
by going elsewhere are prohibited “augmentations” unless Congress gives the statutory blessing.

On the other hand, Congress created the regional commissions assuming a federal-state-tribal
“partnership” that would leverage appropriations with funding from other sources. The three new
commissions created in 2008 seem to have the statutory flexibility to pursue such diversified
funding:

            Sources of Grants. - Grant amounts may be provided entirely from appropriations
            to carry out this subtitle, in combination with amounts available under other
            Federal grant programs, or from any other source.27

However, the Denali Commission doesn’t have such a provision in its enabling legislation. In
attempts to pursue alternative funding, Denali struggles with a legal straitjacket that only
Congress can loosen.

OIG’s past reports28 to Congress have detailed the following 10 frustrations: (1) Denali can’t
accept a grant from the state government;29 (2) Denali can’t accept a grant from another federal

26
     See Federal Advisory Committee Act sections 3(2), 4 (5 USC App.).
27
     40 USC 15501(c).
28
  See Denali OIG, Semiannual Report to the Congress (May 2010), pages 6-9; Denali OIG, Semiannual Report to the Congress
(Nov. 2010), pages 7, 10, 15-17.
29
     See GAO, Denali Commission—Authority to Receive State Grants, # B-319246 (Sept. 1, 2010) at www.gao.gov.
Semiannual IG Report                                           9                                                     May 2011


agency; (3) Denali can’t accept a transfer from another federal agency unless the sender has
statutory authority; (4) Denali can’t recover grant-funded property and apply the disposal
proceeds to future grants; (5) Denali can’t dispose of surplus equipment and spend the proceeds;
(6) Denali’s board members can’t waive their compensation that is set by statute without risking
tax consequences;30 (7) Denali’s authority to accept a cash donation is uncertain; 31 (8) Denali
can’t accept a donation in which the donor specifies the use (a conditional donation);32 (9) Denali
may experience bureaucratic delays33 or restrictions34 when accessing funds that Congress has
directly identified for Denali’s use in another agency’s appropriation; (10) Denali is unsure how
much transportation funding can be transferred from the state government under SAFETEA-
LU.35

Denali’s current structure was appropriate in the agency’s early years when congressional
appropriations were expected as the dominant support. However, the above difficulties signal
that the agency now needs the legal flexibility to pursue more diversified funding. Denali’s
position is a difficult one because conflicting federal policies seem to simultaneously encourage
and discourage efforts to obtain non-federal contributions.

Congress could potentially resolve some of these obstacles by including a provision such as the
following in Denali’s enabling act:

                TRANSFER OF FUNDS FROM OTHER FEDERAL AGENCIES
                    (1) Subject to paragraph (3), for the purposes of this chapter, the
                Commission may accept transfers of funds from other Federal agencies.


30
   Management either implicitly creates a “claim” by failing to pay these fees or potentially forces the well-meaning board
members to pay taxes on “constructive income” that they intended from the start to forego. However, given that the enabling act
identifies the heads of specific statewide organizations as the board members, an argument can be made that they receive the
statutory payments as agents of the sending organizations rather than as individual taxpayers. Under such an interpretation, the
payments are reimbursement to the sending organizations for their executives’ time. This open question can be addressed through
a request for an authoritative “letter ruling” from the Internal Revenue Service as to the correct tax treatment. See Revenue
Procedure 2010-4, 2010-1 I.R.B. 122 (Jan. 4, 2010).
31
   There is an open question as to whether Denali can directly supplement its congressional appropriation with donations of
private “money,” since section 305(c) of the enabling act mentions only contributions of “property” and “services.” Whether a
foundation’s gift of money to Denali would fall within the scope of “property” is simply an unknown under federal appropriation
law. And foundations would expectedly shun the risk that a donation with a specific target would instead disappear into the deep
void of the U.S. Treasury under the “miscellaneous receipts” default.
32
     See GAO, Denali Commission—Authority to Receive State Grants, # B-319246 (Sept. 1, 2010) at www.gao.gov.
33
  See GAO, Denali Commission—Transfer of Funds Made Available through the Federal Transit Administration’s
Appropriations, # B-319189 (Nov. 12, 2010) at www.gao.gov.
34
  In view of the comptroller general’s decision in # B-319189 that “FTA does not have an oversight role in administering the
funds” that Congress has identified for Denali in SAFETEA-LU, Denali’s management should ask Treasury to reconsider its
assumption that similar SAFETEA-LU funding from FHWA is subject to a “parent-child” oversight reporting relationship.
35
  SAFETEA-LU amended Denali’s enabling act to add its transportation program as section 309. The various subsections, taken
together, suggest that Congress was allowing Denali distinctive flexibility to assemble funding from state and federal sources.
However, it may take a comptroller general decision to confidently resolve the uncharted boundaries of this flexibility with a safe
harbor.
Semiannual IG Report                                           10                                                   May 2011


                      (2) Any Federal agency authorized to undertake activities also within
                 the authority of the Commission is authorized to transfer appropriated
                 funds to the Commission for the exercise of such authority.
                      (3) The transferred funds shall remain available until expended and
                 may, to the extent necessary to carry out this chapter, be transferred to and
                 merged by the Federal Co-chair with the appropriations for the
                 Commission.



                           Potential solution: consolidated inspector general function

Congress has now created statutory inspector generals at approximately 70 federal agencies.
Denali has had its own for the past five years — as required by both the Inspector General Act
and Denali’s enabling act. Denali is the smallest of these federal OIGs, with only 1 FTE at this
point (that is, the inspector general himself with no staff). However, regardless of the inspector
general’s ability to professionally “multi-task,”36 the economies of scale simply make it
unrealistic to effectively operate an OIG composed of only a single individual.37

Congress included the following provision for a single, consolidated inspector general function
for the three new regional commissions created by the 2008 Farm Bill:

            Appointment of Inspector General.—There shall be an Inspector General for the
            Commissions appointed in accordance with section 3(a) of the Inspector General
            Act of 1978 (5 U.S.C. App.). All of the Commissions shall be subject to a single
            Inspector General.38

In the interest of more effective public oversight, we have previously 39 recommended that
Congress also include Denali’s OIG within this consolidation. And that remains our
recommendation.



36
     Denali’s inspector general is a CPA, MPA, certified fraud examiner (CFE), and lawyer.
37
     The 2008 study by the Project on Government Oversight (POGO) stated:
            The number of staff members in IG offices ranges from less than one (a part-time assistant) to hundreds. Of
            course, size alone is not absolutely determinative of an IG’s ability to accomplish the mission. However,
            experts consulted by POGO believe that any IG office with fewer than six staffers is incapable of being
            effective and truly independent of its parent agency; the IG must rely on the agency for too much in the way
            of resources, whether administrative, legal, or otherwise. . .
See POGO, Inspectors General: Many Lack Essential Tools for Independence (Feb. 26, 2008), page 19, at www.pogo.org.
38
     See P.L. 110-246, sec. 15704 (40 USC 15704).
39
  See Denali OIG, Semiannual Report to the Congress (May 2010), pages 39-40; Denali OIG, Semiannual Report to the
Congress (Nov. 2010), pages 17-18.
Semiannual IG Report                                          11                                                    May 2011



Some grantees — and the interest groups that advocate for them — have recently cited OIG’s
recommendation as evidence that the Denali Commission doesn’t need a full-time inspector
general. While their lack of enthusiasm for the inspector general function is understandable,
they’re misunderstanding (or misrepresenting) our position on the issue.40

Congress has given Denali around $1 billion over the years, and the agency has funded around
2,000 projects. Effective public oversight of such a federal effort simply requires more than a
one-person OIG. The consolidated OIG that we’ve recommended in our last three reports to
Congress should allow more FTEs, not less, to be focused upon the actual inspection of funded
facilities — versus the administrative and reporting mandates of the Inspector General Act.


                                                                                      MIKE MARSH

                                                                                  INSPECTOR GENERAL
                                                                                  DENALI COMMISSION




40
  Alaskan grantees periodically pressure the agency head to discourage Denali’s inspector general from writing reports, opening
inspections, and consulting oversight regulators such as OMB, GAO, the Justice Department, and congressional staff. The
grantees’ lack of enthusiasm for a full-time OIG is understandable and an expected part of the business. The role of grantees, and
their associated interest groups, is obviously to marshal as much federal money as possible for their beneficiaries — and to
minimize the bureaucratic strings attached to it. And Denali’s OIG’s is definitely one of those “strings” when we find that a
proposed source, or use, of funding would violate federal laws (no matter how well intended). While we may think of ourselves
as facilitating “safe harbors” and keeping people out of trouble, the disappointed see OIG as the “Grinch” that keeps stealing
Denali’s Christmas.
                                                                                                                                                   APPENDIX TO SEMIANNUAL REPORT — PAGE 1



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                           IG REPORT                                     AGENCY
                                                                                                                                        RECOMMENDATION MADE                            STATUS
                                  INSPECTOR GENERAL’S RECOMMENDATION                                                           TO
                                                                                                                                          PER IG ACT SECTION
                                                                                                                                                                          HEAD’S
                                                                                                                                                                                       (PER IG)
                                                                                                                           CONGRESS                                      POSITION



                       29 Recommendations for Better Staffing (Players and Personnel)


Mgmt use of Treasury franchise fund for agency's accounting                                                                 May 2009   4(a)(1) (compliance with laws)     Agree      Implemented

Mgmt supplement in-house expertise during annual audit fieldwork                                                            May 2009   4(a)(1) (compliance with laws)     Agree      Implemented

Mgmt obtain staff training from OMB, GAO, and state's single audit coordinator                                              May 2009   4(a)(1) (compliance with laws)     Agree      Implemented

Mgmt continue use of financial management advisory committee of Beltway experts                                             May 2009   4(a)(1) (compliance with laws)     Agree      Implemented

Mgmt retain IT security consultant to determine cause of IT disruption and prevent recurrence                               May 2008   4(a)(1) (compliance with laws)     Agree      Implemented

Mgmt consult OPM and GAO to develop an HR system consistent with Title 5 requirements                                       May 2010   4(a)(1) (compliance with laws)     Agree      Implemented

Mgmt obtain authoritative guidance as to ethics regulations applicable to transportation project selection panel            May 2010   4(a)(1) (compliance with laws)     Agree      Implemented

Mgmt improve efficiency in travel to commission meetings                                                                    May 2008    4(a)(3) (prevention of waste)     Agree      Implemented

                                                                                                                                                                                        Under
Mgmt enter interchange agreements (5 CFR 6.7) for interagency transfers within competitive service                          May 2010    4(a)(3) (prevention of waste)    Pending
                                                                                                                                                                                     consideration

                                                                                                                                                                                        Under
Mgmt explore potential details of employees from other agencies using telework arrangements                                 May 2011    4(a)(3) (program efficiency)     Pending
                                                                                                                                                                                     consideration

                                                                                                                                                                                        Under
Mgmt explore feasibility of virtual existence with teleworkers as substitute for physical office                            May 2011    4(a)(3) (program efficiency)     Pending
                                                                                                                                                                                     consideration

                                                                                                                                                                                        Under
Mgmt create rural ombudsman position                                                                                        May 2007   4(a)(1) (program effectiveness)   Pending
                                                                                                                                                                                     consideration

                                                                                                                                                                                        Under
Mgmt coordinate technical support for year after community gets new facility                                                May 2007   4(a)(1) (program effectiveness)   Pending
                                                                                                                                                                                     consideration

Mgmt add contractual or in-house talent (e.g., director of innovation) to screen projects for potential participants and                                                                Under
                                                                                                                            May 2007   4(a)(1) (program effectiveness)    Agree
contributors                                                                                                                                                                         consideration

Mgmt coordinate loaned expertise from organizations experienced in northern fuel logistics                                  May 2007   4(a)(1) (program effectiveness)   Disagree   Not implemented

                                                                                                   Table continued on next page
Table continued from prior page                                                                                                                           APPENDIX TO SEMIANNUAL REPORT — PAGE 2



                                                                     APPENDIX
                        STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                                (AS OF APRIL 30, 2011)

                                                                                                                                IG REPORT                                         AGENCY
                                                                                                                                              RECOMMENDATION MADE                                STATUS
                                   INSPECTOR GENERAL’S RECOMMENDATION                                                               TO
                                                                                                                                                PER IG ACT SECTION
                                                                                                                                                                                   HEAD’S
                                                                                                                                                                                                 (PER IG)
                                                                                                                                CONGRESS                                          POSITION


Potential statutory clarification of role of agency head                                                                        May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory hold-over authority for agency head to avoid succession gap                                                 May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress

Potential statutory improvements in process for selection and oversight of agency head                                          May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory clarification of status of agency head as an ―inferior officer‖ under Constitution art. II, sec. 2, cl. 2   May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory clarification of employee status for adverse action appeals to Merit Systems Protection Board               May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory clarification of employee status for transfers to other federal agencies                                    May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress

                                                                                                                                                                                    No
Potential statutory authority to insure certifying officer                                                                      May 2010    4 (a)(2) (potential statute change)               Up to Congress
                                                                                                                                                                                  position

Potential statutory requirement for employment of full-time in-house legal counsel                                              May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress

Potential statutory requirement for employment of rural ombudsman (option of IPA detail)                                        May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress

Potential statutory requirement for employment of director of innovation (option of IPA detail)                                 May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress

Potential statutory requirement for employment of director of program evaluation (option of IPA detail)                         May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress

                                                                                                                                                                                    No
Potential statutory clarification of employee status for collective bargaining                                                  May 2010    4 (a)(2) (potential statute change)               Up to Congress
                                                                                                                                                                                  position

Potential statutory clarification of employee status for whistleblower protection                                               May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory changes in agency head's term (e.g., 10 years, at-will, removal for cause)                                  May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress



                    21 Recommendations for Better Funding Diversification and Flexibility



Mgmt clarify accounting treatment for transfers with federal funders                                                            May 2009     4(a)(1) (compliance with laws)        Agree       Implemented

Mgmt Improve negotiation and monitoring of in-kind contributions available in communities                                       May 2007      4(a)(3) (prevention of waste)       Disagree    Not implemented


                                                                                                       Table continued on next page
Table continued from prior page                                                                                                                       APPENDIX TO SEMIANNUAL REPORT — PAGE 3



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                            IG REPORT                                         AGENCY
                                                                                                                                          RECOMMENDATION MADE                               STATUS
                                  INSPECTOR GENERAL’S RECOMMENDATION                                                            TO
                                                                                                                                            PER IG ACT SECTION
                                                                                                                                                                               HEAD’S
                                                                                                                                                                                            (PER IG)
                                                                                                                            CONGRESS                                          POSITION


Potential statutory authority to accept direct non-exchange transfers from any federal or state source                      May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory clarification of congressional expectations for prompt transfers of identified appropriations           May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory presumption that transfers of fixed-period appropriations from other agencies are converted into
                                                                                                                            May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress
no-year funding upon receipt

Potential statutory presumption of no-year funding for appropriations                                                       May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress

                                                                                                                                                                                No
Potential statutory authority to receive related appropriations not used by other agencies (linkage to CBO monitoring)      May 2010    4 (a)(2) (potential statute change)              Up to Congress
                                                                                                                                                                              position

Potential statutory authority to select most transparent accounting paradigm (GAAP selection: FASB vs. GASB vs.                                                                 No
                                                                                                                            May 2010    4 (a)(2) (potential statute change)              Up to Congress
FASAB)                                                                                                                                                                        position


Potential statutory clarification of accounting treatment for intergovernmental transfers (classification as non-exchange
                                                                                                                            May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress
expenditures, timing recognition for receipt, point of ―obligation‖ for recording grants)


Potential statutory clarification of authority to receive and spend direct donations of money from private charitable
                                                                                                                            May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress
foundations (versus donations of ―property‖ and ―services‖)


Potential statutory requirement for minimum levels of hard-cash match from various grantees                                 May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory requirement for increased hard-cash match from state government                                         Nov 2011    4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory authority to directly dispose of surplus equipment and spend the receipts (miscellaneous receipts,
                                                                                                                            May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress
offsetting collections)

Potential statutory clarification of status of grant-funded property after changed use (reasonable notice and duration of
                                                                                                                            May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress
continuing federal interest)


Potential statutory authority to directly dispose of recovered grant-funded property and spend the receipts on future
                                                                                                                            May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress
grants (miscellaneous receipts, offsetting collections)


Potential statutory authority for waiver of board members' compensation                                                     May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory authority to incur reasonable official reception and representation expenses                            May 2010    4 (a)(2) (potential statute change)    Agree     Up to Congress

                                                                                                   Table continued on next page
Table continued from prior page                                                                                                                       APPENDIX TO SEMIANNUAL REPORT — PAGE 4



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                            IG REPORT                                         AGENCY
                                                                                                                                          RECOMMENDATION MADE                               STATUS
                                  INSPECTOR GENERAL’S RECOMMENDATION                                                            TO
                                                                                                                                            PER IG ACT SECTION
                                                                                                                                                                               HEAD’S
                                                                                                                                                                                            (PER IG)
                                                                                                                            CONGRESS                                          POSITION


Potential statutory match incentives involving Alaska permanent fund dividends                                               May 2010   4 (a)(2) (potential statute change)   Disagree   Up to Congress

                                                                                                                                                                                No
Potential statutory authority to collect and spend user fees from services to businesses (e.g., polar shipping route)        May 2010   4 (a)(2) (potential statute change)              Up to Congress
                                                                                                                                                                              position

                                                                                                                                                                                No
Potential statutory authority to issue bonds                                                                                 May 2010   4 (a)(2) (potential statute change)              Up to Congress
                                                                                                                                                                              position

                                                                                                                                                                                No
Potential statutory authority to guarantee loans                                                                             May 2010   4 (a)(2) (potential statute change)              Up to Congress
                                                                                                                                                                              position



                               40 Recommendations for Better Agency Processes



Mgmt improve public access to commission meetings                                                                            May 2008    4(a)(1) (compliance with laws)        Agree      Implemented

Mgmt improve efficiency in meeting transcription                                                                             May 2008     4(a)(3) (prevention of waste)        Agree      Implemented

Mgmt coordinate salvage of unwanted technology (two devices, ≈ $6,000 each) at two funded facilities                         May 2007     4(a)(3) (prevention of waste)        Agree      Implemented

                                                                                                                                                                                             Under
Mgmt coordinate semiannually with state education dept. re simultaneous construction mobilization                            May 2007     4(a)(3) (program efficiency)         Agree
                                                                                                                                                                                          consideration

Mgmt coordinate semiannually with state education dept. re potential collocation of facilities                               May 2007     4(a)(3) (program efficiency)         Agree     Not implemented

Mgmt coordinate semiannually with state education dept. re communities at risk of school closure (< 15 students)             May 2007     4(a)(3) (prevention of waste)        Agree     Not implemented

                                                                                                                                                                                             Under
Mgmt request commissioners' advice on serviceable size of communities receiving funded facilities                            May 2007     4(a)(3) (program efficiency)         Agree
                                                                                                                                                                                          consideration

                                                                                                                                                                                             Under
Mgmt request commissioners to facilitate coordination of additional project participants and contributors                    May 2007    4(a)(1) (program effectiveness)       Agree
                                                                                                                                                                                          consideration

                                                                                                                                                                                             Under
Mgmt coordinate resolution of clinic’s non-operational telemedicine equipment                                                May 2007     4(a)(3) (program efficiency)         Agree
                                                                                                                                                                                          consideration

Mgmt publicly archive agency's technological "lessons learned" within University of Alaska                                   Nov 2011     4(a)(3) (prevention of waste)        Agree     Not Implemented

Mgmt convene semiannual design summits to publicly disseminate lessons learned in bush construction                          May 2007    4(a)(1) (program effectiveness)      Disagree   Not implemented

                                                                                                    Table continued on next page
Table continued from prior page                                                                                                                      APPENDIX TO SEMIANNUAL REPORT — PAGE 5



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                           IG REPORT                                         AGENCY
                                                                                                                                         RECOMMENDATION MADE                               STATUS
                                   INSPECTOR GENERAL’S RECOMMENDATION                                                          TO
                                                                                                                                           PER IG ACT SECTION
                                                                                                                                                                              HEAD’S
                                                                                                                                                                                           (PER IG)
                                                                                                                           CONGRESS                                          POSITION


Mgmt retain GSA to recover structural steel from never-completed facility                                                   May 2010     4(a)(3) (prevention of waste)        Moot           Moot

Mgmt retain agency records of financial transactions and grants for five years                                              May 2010     4(a)(3) (program efficiency)        Disagree   Not Implemented

                                                                                                                                                                                            Under
Mgmt explore application of APA public rulemaking process to agency policies                                                May 2008    4(a)(1) (program effectiveness)      Pending
                                                                                                                                                                                         consideration

                                                                                                                                                                                            Under
Mgmt consult state troopers prior to funding rural police stations                                                          May 2010     4(a)(3) (prevention of waste)       Pending
                                                                                                                                                                                         consideration

                                                                                                                                                                                            Under
Mgmt consult state fire marshal prior to funding rural fire stations                                                        May 2010     4(a)(3) (prevention of waste)       Pending
                                                                                                                                                                                         consideration

Potential statutory improvements in role and structure of enabling act's board of ex-officio advisory commissioners
                                                                                                                            May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress
appointed from grantee stakeholders and interest groups


Potential statutory clarification of requirement for personal attendance by appointed board members (versus informal ad
                                                                                                                            May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress
hoc substitution of alternates and proxies)


Congress reassess continued utility of FACA exemption (status as interest group representatives or SGEs)                    May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory improvements in public process for annual work plan required by current statute                         May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory clarification of role and structure of advisory committees appointed by agency head                     May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory clarification of role and structure of transportation advisory board created by SAFETEA-LU
                                                                                                                            May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress
amendment

Potential statutory clarification of state government's role in work of agency                                              May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory clarification of tribes' role in work of agency                                                         May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory Incentives for collocation of funded projects with existing school buildings                            May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory linkage with University of Alaska and cooperative extension service                                     May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress

Potential statutory linkage with U.S. Arctic Research Commission                                                            May 2010   4 (a)(2) (potential statute change)    Agree     Up to Congress



                                                                                                   Table continued on next page
Table continued from prior page                                                                                                                        APPENDIX TO SEMIANNUAL REPORT — PAGE 6



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                             IG REPORT                                         AGENCY
                                                                                                                                           RECOMMENDATION MADE                                STATUS
                                   INSPECTOR GENERAL’S RECOMMENDATION                                                            TO
                                                                                                                                             PER IG ACT SECTION
                                                                                                                                                                                HEAD’S
                                                                                                                                                                                              (PER IG)
                                                                                                                             CONGRESS                                          POSITION


Potential statutory linkage with national energy laboratories                                                                May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress


Potential statutory requirement for financial audit and PAR frequency every two years, with annual CBO reporting of
                                                                                                                             May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress
unexpended obligations and unobligated appropriations


Congress assess utility of separate FISMA review when systems substantially delegated to federal service center              May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory clarification of authority to develop alternative procurement process using sound business practices
                                                                                                                             May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress
(FAR exemption)


Potential statutory clarification of agency's sunshine law at 42 USC 15911(c) (covered ―meetings,‖ grounds for closed
                                                                                                                             May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress
meetings, threshold for ―deliberations‖)


Potential statutory requirement for program impact evaluation of outcomes (potential percentage of agency budget)            May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress


Potential statutory criteria for the serviceable size of funded communities (―micro-settlement‖ population thresholds) –
time interval, linkage with school attendance, counting methodology, state demographer, permanent fund dividends,            May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress
threshold overrides


Potential statutory clarification of applicability of public rulemaking process of the Administrative Procedures Act         May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress


Potential statutory clarification of grant eligibility when applicant has delinquent taxes (application of IRS levies to
                                                                                                                             May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress
grants)


Potential statutory clarification of required records retention period                                                       May 2010    4 (a)(2) (potential statute change)   Disagree    Up to Congress

Potential statutory requirement for the perpetuation of public lessons-learned in Northern problem-solving                   May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress


Potential statutory requirement for internal appeal process for grant applicants (versus direct appeal to federal district
                                                                                                                             May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress
court)


Potential statutory clarification of applicability of Paperwork Reduction Act                                                May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress




                                                                                                    Table continued on next page
Table continued from prior page                                                                                                                   APPENDIX TO SEMIANNUAL REPORT — PAGE 7



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                          IG REPORT                                    AGENCY
                                                                                                                                       RECOMMENDATION MADE                            STATUS
                                  INSPECTOR GENERAL’S RECOMMENDATION                                                          TO
                                                                                                                                         PER IG ACT SECTION
                                                                                                                                                                        HEAD’S
                                                                                                                                                                                      (PER IG)
                                                                                                                          CONGRESS                                     POSITION




                              11 Recommendations for Better Conflict Resolution



Mgmt develop grant condition requiring immediate notice of any litigation                                                  May 2007    4(a)(3) (prevention of waste)    Agree      Not implemented

Mgmt assess impact of project-related litigation against major grantee                                                     May 2007    4(a)(3) (prevention of waste)    Agree      Not implemented

Mgmt disclose to independent auditor any claims or litigation defended by major grantees in funded projects                May 2007   4(a)(1) (compliance with laws)    Agree      Not implemented

Mgmt assess potential liability for connecting new facilities to pre-existing conditions                                   May 2007    4(a)(3) (prevention of waste)   Disagree    Not implemented

                                                                                                                                       4(a)(3) (prevention of fraud
Mgmt retain GSA to evaluate whether grantee's settlement of lawsuit compromised a federal claim                            May 2010                                    Disagree    Not implemented
                                                                                                                                                and waste)

                                                                                                                                       4(a)(3) (prevention of fraud
Mgmt review allowability of structural steel price increases accepted by grantee                                           May 2010                                    Disagree    Not implemented
                                                                                                                                                and waste)


Mgmt clarify with federal OMB the allowability of grantee costs related to a regulatory violation (e.g., defense,
                                                                                                                           May 2007    4(a)(3) (prevention of waste)   Uncertain   Not implemented
settlement)


Mgmt resolve $18,000 payment to project recipient for lodging itinerant construction workers (in-kind dispute)             May 2007    4(a)(3) (prevention of waste)   Uncertain   Not implemented

Mgmt request commissioners to serve as mediation team in dispute over $40,000 access fee billed by project beneficiary     May 2007    4(a)(3) (prevention of waste)     Moot           Moot

Mgmt assess potential existence of public easement in lieu of paying $40,000 access fee to project beneficiary             May 2007    4(a)(3) (prevention of waste)     Moot           Moot

Mgmt meet with city manager re dispute over $40,000 access fee billed by project beneficiary                               May 2007    4(a)(3) (prevention of waste)     Moot           Moot



                   25 Recommendations for Better Controls Over the Use of Grant Funds



Mgmt assess lessons learned from grantee’s experiment in consolidated expenditures tracking                                May 2007    4(a)(3) (program efficiency)     Agree       Implemented

Mgmt refine accounting system’s transparency in tracking grants by specific appropriation                                  May 2007   4(a)(1) (compliance with laws)    Agree       Implemented

                                                                                                  Table continued on next page
Table continued from prior page                                                                                                                  APPENDIX TO SEMIANNUAL REPORT — PAGE 8



                                                                   APPENDIX
                      STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                              (AS OF APRIL 30, 2011)

                                                                                                                         IG REPORT                                     AGENCY
                                                                                                                                      RECOMMENDATION MADE                             STATUS
                                 INSPECTOR GENERAL’S RECOMMENDATION                                                          TO
                                                                                                                                        PER IG ACT SECTION
                                                                                                                                                                        HEAD’S
                                                                                                                                                                                      (PER IG)
                                                                                                                         CONGRESS                                      POSITION


Mgmt find improved accounting software                                                                                    May 2007   4(a)(1) (compliance with laws)     Agree       Implemented

Mgmt address independent auditor's recommendations for improved grants accounting policies and procedures                 May 2008   4(a)(1) (program effectiveness)    Agree       Implemented

Mgmt continue use of Grant Solutions system for tracking grants                                                           May 2009    4(a)(3) (program efficiency)      Agree       Implemented

Mgmt obtain NIST certification and accreditation of IT security controls                                                  May 2009   4(a)(1) (compliance with laws)     Agree       Implemented

Mgmt clarify with federal OMB the commission's status as the ―cognizant agency for audit responsibilities‖                May 2007   4(a)(1) (compliance with laws)     Agree       Implemented

Mgmt assess grantee’s requirement for small communities to arrange annual financial audits of sub-award facilities        May 2007    4(a)(3) (prevention of waste)     Agree       Implemented

                                                                                                                                      4(a)(3) (prevention of fraud                    Partially
Mgmt improve traceability of funding for individual facilities in "pooled" grants                                         May 2008                                     Uncertain
                                                                                                                                               and waste)                           implemented

Mgmt implement grant condition covering disposition of surplus materials                                                  May 2007    4(a)(3) (prevention of waste)     Agree      Not implemented

Mgmt develop grant condition to compare application's "business plan" with actual long-term results                       May 2008   4(a)(1) (program effectiveness)    Agree      Not Implemented

                                                                                                                                      4(a)(3) (prevention of fraud
Mgmt develop A-133 process for reviewing findings of grantees' single audits                                              May 2010                                      Agree      Not implemented
                                                                                                                                               and waste)

Mgmt publish grants management "common rule" in CFR                                                                       May 2010   4(a)(1) (compliance with laws)    Disagree    Not implemented

                                                                                                                                      4(a)(3) (prevention of fraud
Mgmt develop grant condition requiring grantee site visits to subaward construction                                       May 2010                                     Disagree    Not implemented
                                                                                                                                               and waste)

Mgmt coordinate cooperative extension assistance to grantees re fire marshal approvals                                    May 2010    4(a)(3) (program efficiency)     Disagree    Not implemented

Mgmt assess potential for RFID tracking of palletized materials en route to remote construction sites                     May 2007    4(a)(3) (prevention of waste)    Uncertain   Not implemented

Mgmt develop grant condition requiring documented fire marshal approval before construction                               May 2010    4(a)(3) (prevention of waste)    Uncertain   Not implemented

Mgmt develop grant condition to publicly record continuing federal interest in community's use of completed facility      May 2010    4(a)(3) (prevention of waste)    Uncertain   Not implemented

                                                                                                                                      4(a)(3) (prevention of fraud
Mgmt develop grant condition requiring independent appraisal of contributed land                                          May 2010                                     Uncertain   Not implemented
                                                                                                                                               and waste)


                                                                                                 Table continued on next page
Table continued from prior page                                                                                                                       APPENDIX TO SEMIANNUAL REPORT — PAGE 9



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                            IG REPORT                                         AGENCY
                                                                                                                                          RECOMMENDATION MADE                                STATUS
                                   INSPECTOR GENERAL’S RECOMMENDATION                                                           TO
                                                                                                                                            PER IG ACT SECTION
                                                                                                                                                                               HEAD’S
                                                                                                                                                                                             (PER IG)
                                                                                                                            CONGRESS                                          POSITION

                                                                                                                                          4(a)(3) (prevention of fraud
Mgmt develop grant condition requiring grantee's review of subaward's major contracts                                        May 2010                                         Uncertain   Not implemented
                                                                                                                                                   and waste)

                                                                                                                                          4(a)(3) (prevention of fraud
Mgmt develop grant condition requiring grantee's review of subaward's single audits                                          May 2010                                         Uncertain   Not implemented
                                                                                                                                                   and waste)

                                                                                                                                          4(a)(3) (prevention of fraud
Mgmt conduct A-133 quality control reviews of grantee single audits                                                          May 2010                                         Uncertain   Not implemented
                                                                                                                                                   and waste)

                                                                                                                                          4(a)(3) (prevention of fraud
Mgmt confer with grantee CPAs during A-133 planning of single audit coverage                                                 May 2010                                         Uncertain   Not implemented
                                                                                                                                                   and waste)


Potential statutory Inclusion of nominal subrecipients with no funds custody within umbrella single audits of major
                                                                                                                             May 2010   4 (a)(2) (potential statute change)    Agree      Up to Congress
program partners


Potential statutory clarification of authority for customized grant conditions and "common rule"                             May 2010   4 (a)(2) (potential statute change)    Agree      Up to Congress


                      8 Recommendations for the Agency's Optimal Permanent Structure


Potential statutory clarification of legal status as a federal agency                                                        May 2010   4 (a)(2) (potential statute change)    Agree      Up to Congress

Congress reassess continuing utility of legal status as a federal regional commission                                        May 2010   4 (a)(2) (potential statute change)   Disagree    Up to Congress

Potential statutory change to a multi-state (and international) service structure – versus single state focus                May 2010   4 (a)(2) (potential statute change)   Disagree    Up to Congress


Potential statutory change in entity's legal form (nonprofit with perpetual existence, federal corporation, government
                                                                                                                             May 2010   4 (a)(2) (potential statute change)   Disagree    Up to Congress
sponsored enterprise, or entity subject to end-game sunset — versus continuation as a single-head agency)


Potential statutory change of entity’s name (e.g., Denali Consortium, Denali Passage Authority)                              May 2010   4 (a)(2) (potential statute change)   Disagree    Up to Congress

Potential statutory clarification of legal status as an independent federal agency                                           May 2010   4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential federal status as a multi-national entity under treaties (cf. St. Lawrence Seaway)                                 May 2010   4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory incorporation as an operating administration under the Secretary of Commerce                             May 2011   4 (a)(2) (potential statute change)   Disagree    Up to Congress


                                                                                                    Table continued on next page
Table continued from prior page                                                                                                                          APPENDIX TO SEMIANNUAL REPORT — PAGE 10



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                                 IG REPORT                                         AGENCY
                                                                                                                                               RECOMMENDATION MADE                                STATUS
                                   INSPECTOR GENERAL’S RECOMMENDATION                                                                TO
                                                                                                                                                 PER IG ACT SECTION
                                                                                                                                                                                    HEAD’S
                                                                                                                                                                                                  (PER IG)
                                                                                                                                 CONGRESS                                          POSITION




       25 Recommendations for Potential "Value Added" for the Public (Filling the Federal Gaps)



Mgmt aggressively search for rural energy demonstration projects that use non-diesel technologies                                May 2007     4(a)(1) (program effectiveness)       Agree       Implemented

Mgmt accompany fuel vendors (river barge, cargo plane) to understand transportation logistics                                    May 2007     4(a)(1) (program effectiveness)       Agree       Implemented

Mgmt fund clinics collocated within remote rural school buildings                                                                Nov 2011      4(a)(3) (prevention of waste)        Agree      Not Implemented

Mgmt coordinate with military environmental remediation of former defense sites around Alaska                                    Nov 2011      4(a)(3) (program efficiency)         Agree      Not implemented

Mgmt analyze diagnostic and treatment data for constructed clinics                                                               Nov 2011     4(a)(1) (program effectiveness)      Disagree    Not Implemented

                                                                                                                                                                                                   Under
Mgmt analyze telehealth usage data for constructed clinics                                                                       Nov 2011      4(a)(3) (prevention of waste)       Pending
                                                                                                                                                                                                consideration

Mgmt explore staffing of constructed clinics as medical school field stations                                                    Nov 2011     4(a)(1) (program effectiveness)      Uncertain   Not Implemented

Mgmt develop grant condition for engineers to do a science career talk at school in project communities                          May 2007     4(a)(1) (program effectiveness)      Disagree    Not implemented

Potential statutory clarification of distinctive subject-matter core competencies and niches                                     May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory clarification of agency's government coordination as a core service rather than a byproduct                  May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory role in demo projects that pioneer national health care delivery paradigm shifts (e.g., dental therapists,
                                                                                                                                 May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress
telehealth diagnosis, telepharmacy, alternative remedies, alcoholism treatment)

Potential statutory role in roadless rural telecommunications development                                                        May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory role as model program for successful federal collaboration with tribal corporate entities                    May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory role in recycling closed school buildings in remote communities                                              May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory role in fuel cell demo projects                                                                              May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

Potential statutory role in small-scale geothermal demo projects                                                                 May 2010    4 (a)(2) (potential statute change)    Agree      Up to Congress

                                                                                                    Table continued on next page
Table continued from prior page                                                                                                                       APPENDIX TO SEMIANNUAL REPORT — PAGE 11



                                                                    APPENDIX
                       STATUS OF 159 RECOMMENDATIONS MADE BY DENALI COMMISSION’S INSPECTOR GENERAL DURING FY 2006 TO FY 2011
                                                               (AS OF APRIL 30, 2011)

                                                                                                                              IG REPORT                                         AGENCY
                                                                                                                                            RECOMMENDATION MADE                                STATUS
                                   INSPECTOR GENERAL’S RECOMMENDATION                                                             TO
                                                                                                                                              PER IG ACT SECTION
                                                                                                                                                                                 HEAD’S
                                                                                                                                                                                               (PER IG)
                                                                                                                              CONGRESS                                          POSITION


Potential statutory role in support facilities and services along the integrated-harbors Northwest Passage shipping lane
                                                                                                                              May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress
opened by retreating polar ice


Potential statutory role in supporting regional hubs as an alternative to urban migration                                     May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory role in community relocations from coastal erosion and flooding                                           May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory role in remediating brownfields of replaced facilities (potential linkage to military site remediation)   May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory role of rural clinics as a public health ―DEW line‖ for global disease                                    May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory role to pioneer federal insurance partnership to complete grants after contractor failure                 May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory role in remote nuclear battery demo projects (coordination of NRC permitting and local choices)           May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory role in applied research for use of North Slope methane hydrate deposit                                   May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress

Potential statutory role in recycling surplus overseas military equipment (e.g., containerized waste-burning generators)      May 2010    4 (a)(2) (potential statute change)   Uncertain   Up to Congress
